<html>
<title> - A REVIEW OF THE SPACE LEADERSHIP PRESERVATION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                    A REVIEW OF THE SPACE LEADERSHIP
                            PRESERVATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, FEBRUARY 27, 2013

                               __________

                           Serial No. 113-08

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

79-927PDF                 WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 DANIEL LIPINSKI, Illinois
F. JAMES SENSENBRENNER, JR.,         DONNA F. EDWARDS, Maryland
    Wisconsin                        FREDERICA S. WILSON, Florida
FRANK D. LUCAS, Oklahoma             SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MICHAEL T. McCAUL, Texas             DAN MAFFEI, New York
PAUL C. BROUN, Georgia               ALAN GRAYSON, Florida
STEVEN M. PALAZZO, Mississippi       JOSEPH KENNEDY III, Massachusetts
MO BROOKS, Alabama                   SCOTT PETERS, California
RANDY HULTGREN, Illinois             DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                ELIZABETH ESTY, Connecticut
BILL POSEY, Florida                  MARC VEASEY, Texas
CYNTHIA LUMMIS, Wyoming              JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            MARK TAKANO, California
THOMAS MASSIE, Kentucky              VACANCY
KEVIN CRAMER, North Dakota
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, Texas                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
MO BROOKS, Alabama                   DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                MARC VEASEY, Texas
BILL POSEY, Florida                  JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            FREDERICA S. WILSON, Florida
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
CHRIS STEWART, Utah
LAMAR S. SMITH, Texas
















                            C O N T E N T S

                      Wednesday, February 27, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     6

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     8

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

                               Witnesses

                                Panel I

The Honorable John Culberson, Member, House Appropriations 
  Committee, U.S. House of Representatives
    Oral Statement...............................................    11
    Written Statement............................................    14

The Honorable Frank R. Wolf, Chairman, Subcommittee on Commerce, 
  Justice, Science, and Related Agencies, House Appropriations 
  Committee, U.S. House of Representatives
    Oral Statement...............................................    17
    Written Statement............................................    19

                                Panel II

Mr. A. Thomas Young, Executive Vice President (Ret.) Lockheed 
  Martin Corporation
    Oral Statement...............................................    24
    Written Statement............................................    27

Mr. Elliot Pulham, Chief Executive Officer, The Space Foundation
    Oral Statement...............................................    35
    Written Statement............................................    38

Discussion.......................................................    45

             Appendix I: Answers to Post-Hearing Questions

Mr. A. Thomas Young, Executive Vice President (Ret.) Lockheed 
  Martin Corporation.............................................    58

Mr. Elliot Pulham, Chief Executive Officer, The Space Foundation.    60

            Appendix II: Additional Material for the Record

Space Foundation report Submitted by Mr. Elliot Pulham...........    66

 
           A REVIEW OF THE SPACE LEADERSHIP PRESERVATION ACT

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                  House of Representatives,
                                   Subcommittee on Research
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Palazzo. The Subcommittee on Space will come to 
order.
    Good morning. Welcome to today's hearing entitled ``A 
Review of the Space Leadership Preservation Act.'' In front of 
you are packets containing the written testimony, biographies 
and required Truth-in-Testimony disclosures for today's 
witnesses. I recognize myself for five minutes for an opening 
statement.
    I would like to welcome everyone to the Space 
Subcommittee's first hearing of the 113th Congress. I am 
honored to chair this Subcommittee, and although our name has 
been abbreviated, our focus and commitment to providing 
leadership and oversight over our Nation's aerospace, 
aeronautics, science and human spaceflight programs remain as 
strong as ever.
    I am more than pleased to be partnering on the Subcommittee 
with Representative Donna Edwards of Maryland as our Ranking 
Member. Her voice on issues of critical importance to this 
Subcommittee is valued and respected by colleagues, industry 
and the space community, and certainly by me. I look forward to 
working with you, Ms. Edwards.
    I would like to offer a welcome to all our new and 
returning Members to this Committee. I am proud to chair not 
only the Science Committee's largest Subcommittee but also one 
that addresses issues that reflect the interest and passion of 
so many Members of Congress.
    And no issue we will discuss will garner more debate, nor 
should it, than our efforts to reauthorize the National 
Aeronautics and Space Administration. It is the mandate for 
this Subcommittee to be a critical player in writing and 
shaping that piece of legislation. I also want to thank full 
Committee Chairman Lamar Smith for his leadership and trust in 
doing so.
    Working with the Chairman, with our full Committee Vice 
Chair Dana Rohrabacher, and with our Subcommittee Vice Chair Mo 
Brooks, who I had the privilege of spending time with last week 
in Huntsville visiting the Marshall Space Flight Center, we are 
ready for the critical work ahead. That work begins with 
today's hearing as we consider the principles proposed by 
Congressmen John Culberson of Texas and Frank Wolf of Virginia 
in their legislation entitled ``The Space Leadership 
Preservation Act.'' They have offered us a proposal for many of 
the challenges facing our Nation's space agency. Through the 
authorization process, we look forward to working together to 
implement those ideas which will or may benefit the agency in 
the long term.
    The missions that NASA should be focused on are complex, 
they are expensive, and they are long term. Too often, 
decisions made, whether by Congress, by the Administration or 
within the agency itself, hamper and undermine the necessary 
commitment to programs and projects that require patience and 
stability instead of uncertainty and shortcuts.
    Today's hearing begins a conversation about how we can work 
together as a Subcommittee, Democrats and Republicans, Members 
of the House and Senate, and with industry, academia and the 
next generation of aspiring space explorers to ensure our 
Nation remains firmly fixed on an ambitious and worthy space 
program. Even in these times of 11th-hour deals and 
manufactured crises, we must look to provide leadership for a 
long-term goal for NASA and our Nation. In doing so, we will 
preserve America's hard-earned and well-deserved place as the 
global leader in space exploration.
    Thanks again to our witnesses for appearing before us this 
morning.
    [The prepared statement of Mr. Palazzo follows:]

  Prepared Statement of Subcommittee on Space Chairman Steven Palazzo

    Good morning. I'd like to welcome everyone to the Space 
Subcommittee's first hearing of the 113th Congress. I am honored to 
Chair this subcommittee and although our name has been abbreviated, our 
focus and commitment to providing leadership and oversight over our 
nation's aerospace, aeronautics, science and human spaceflight programs 
remain as strong as ever.
    And if you are speaking of strength in leadership, I am more than 
pleased to be partnering on the subcommittee with Representative Donna 
Edwards of Maryland as our Ranking Member. Her voice on issues of 
critical importance to this subcommittee is valued and respected by 
colleagues, within industry and the space community, and certainly by 
me. I look forward to working with you Ms. Edwards.
    I'd like to offer a welcome to all our new and returning members to 
this committee. We should take it as a point of pride that our 
subcommittee, the largest of the subcommittees of the Science, Space, 
and Technology Committee, reflects the interest and passion of many 
members of Congress in the issues we will be addressing.
    And no issue we will discuss will garner more debate, nor should 
it, than our efforts to reauthorize the National Aeronautics and Space 
Administration (NASA). It is the mandate for this subcommittee to be a 
critical player in writing and shaping that piece of legislation. And 
for his leadership and trust in doing so, I thank full committee 
Chairman Lamar Smith, whose dedication to putting NASA on a path toward 
success is without compare.
    Working with the Chairman, with our Full Committee Vice Chair Dana 
Rohrabacher, and with our subcommittee Vice Chair Mo Brooks, who I had 
the privilege of spending time with last week in Huntsville visiting 
the Marshall Space Flight Center, we are ready for the critical work 
ahead.
    That work begins with today's hearing as we consider the principles 
proposed by Congressmen John Culberson of Texas and Frank Wolf of 
Virginia in their legislation entitled, ``The Space Leadership 
Preservation Act.'' They have offered us a proposal for many of the 
challenges facing our nation's space agency. Through the authorization 
process, we look forward to working together to implement those ideas 
which will benefit the agency long term.
    The missions that NASA should be focused on are complex, they are 
expensive, and they are long term. Too often decisions made, whether by 
Congress, by the Administration or within the Agency itself, hamper and 
undermine the necessary commitment to programs and projects that 
require patience and stability instead of uncertainty and shortcuts.
    Today's hearing begins a conversation about how we can work 
together--as a subcommittee, Democrats and Republicans, members of the 
House and Senate, and with industry, academia, and the next generation 
of aspiring space explorers--to ensure our nation remains firmly fixed 
on an ambitious and worthy space program. Even in these times of 
deadlines and cliffs, we must look to provide leadership for a long 
term goal for NASA and our nation. In doing so we will preserve 
America's hard earned place as the global leader in space exploration.
    Thanks again to our witnesses for appearing before us this morning. 
I now recognize Ranking Member Edwards for her opening statement.

    Chairman Palazzo. I now recognize the Ranking Member, the 
gentlewoman from Maryland, Ms. Edwards, for an opening 
statement.
    Ms. Edwards. Thank you, Chairman Palazzo, as we begin our 
first Subcommittee hearing of the 113th Congress, and I just 
want to say how much I am looking forward to working with you 
and with the Members of our Subcommittee. We do share a deep 
passion together for the work of the agencies we have 
responsibility for overseeing, and I am looking forward to the 
prospects of this Congress and us working together as I know we 
will.
    We do have a lot on our plate during this Congress, 
including helping to set the future direction of the Nation's 
civilian space program through the upcoming NASA 
reauthorization, and like you, I consider NASA's space and 
aeronautics programs an integral part of America's innovation 
agenda, and I want to work to ensure that they remain strong 
and they are fit for the challenges of the 21st century.
    This brings us to today's hearing. I want to start by 
joining you in welcoming all of our witnesses, including my 
good friend Chairman Wolf and Representative Culberson, the 
original sponsors of the Space Leadership Preservation Act of 
2013, to give us their perspectives on what it will take for 
America's space program to remain preeminent and vital. I want 
to thank Chairman Wolf for your support and help also with the 
resources that are required for the James Webb Space Telescope, 
really important to both our districts.
    The stated purpose of the bill would put it this way: ``To 
ensure that the American space program will always be the best 
in the world, and to ensure that America will always be able to 
preserve and protect our leadership in the exploration of outer 
space and the high ground of the future.'' That is a sentiment 
that I want you to know that I share wholeheartedly and 
endorse, and I look forward to hearing your views, as I do the 
views of the witnesses on our second panel.
    Very specifically, the bill seeks to set in statute the 
term of the NASA Administrator, to create a board of directors 
for the agency, and direct that board, among other functions, 
to create a budget for NASA that would be transmitted to the 
Congress each year in advance of the President's Fiscal Year 
budget request.
    Now, it has been said that this bill attempts to model 
NASA's management on that of the National Science Foundation 
but I would note that there are differences between NASA and 
NSF. They are very different agencies. One of the NSF's main 
functions is to issue grants for research. NASA, on the other 
hand, is an R&D agency. It has multiple missions and 
development programs, and it has operational responsibilities 
for, among other things, the International Space Station. The 
National Science Board, which governs the NSF jointly with the 
Director, doesn't provide a budget to the Congress 
independently of the Director, as is proposed in this 
legislation. I would also note that a statutory term for the 
Administrator doesn't necessarily ensure stability at an agency 
but I am concerned about the stability of NASA, and I think it 
would be helpful to consider a term that spans Administrations 
and that does create the kind of management stability that is 
needed at the agency. Nonetheless, for example, the current NSF 
Director has announced his intentions to leave the NSF only two 
and a half years into his six-year statutory term. So that 
alone doesn't ensure that you have the kind of stability that 
all of us are seeking.
    We have to also remember that NASA is not a business and 
can't operate as a business. It has different functions. Even 
though we want to see efficiency of taxpayer resources and we 
value those efficiencies, we have to be clear about the 
distinctions between NASA and the work that it does in 
promoting our civilian space program and operating it and the 
work that a conventional corporation or business would do. So 
it is not a direct transferable model.
    I also have questions about the implications of the 
proposals for the implementation of Congressional direction 
that is spelled out in legislation as well as potential 
unintended consequences, so I hope that we have an opportunity 
to explore those, and I do have some concerns right now for 
NASA, for the rest of the Federal Government and for the Nation 
as a whole as we try to figure out resources in what I believe 
is an already strapped resource environment for the space 
agency. Those questions are looming on us even as this week 
comes to a close.
    And so while today's hearing will consider legislation that 
would stabilize NASA's direction, the sad truth is that we are 
in a Congress and we have to continually contribute to the 
agency's funding but we also contribute right now in this 
environment to its instability and to the mismatch of resources 
with expectations. If we expect NASA to do great things, and I 
know that all of us want NASA to do great things, want it to 
inspire this next generation, we know that its employees have 
to have the kind of stability that they need to do the 
oversight that is important, and my experience working out at 
Goddard Space Flight Center is that whether you are a 
contractor or whether you are a civilian employee, you work in 
the same environment, and all of us used to just say we work at 
NASA. We never made those distinctions, and I think that the 
way that we need to think about the agency has to reflect that.
    Just a few months ago, as we all watched the Curiosity land 
on Mars, along with dozens, really, actually hundreds of young 
people over at Goddard Space Flight Center, their enthusiasm 
was electrifying. They are the Nation's future. Our agency has 
to reflect that future.
    And with that, I would close. Thank you.
    [The prepared statement of Ms. Edwards follows:]

      Prepared Statement of Ranking Minority Member Donna Edwards
    Chairman Palazzo, as we start our first Subcommittee hearing of the 
113th Congress, I'd just like to say how much I am looking forward to 
working with you.
    We have a lot on our plate this Congress, including helping to set 
the future direction of our nation's civil space program through the 
upcoming NASA reauthorization.
    Like you, I consider NASA's space and aeronautics programs an 
integral part of America's innovation agenda, and I want to work to 
ensure that they remain strong and fitted for the challenges of the 
21st century.
    Which brings us to today's hearing. And I'd like to start by 
joining you in welcoming all of our witnesses, including Chairman Wolf 
and Rep. Culberson, the original sponsors of the Space Leadership 
Preservation Act of 2013, to give us their perspectives on what it will 
take for America's space program to remain preeminent and vital.
    Or as the stated purpose of the bill would put it: ``To ensure that 
the American space program will always be the best in the world, and to 
ensure that America will always be able to preserve and protect our 
leadership in the exploration of outer space, the high ground of the 
future.''
    That's a sentiment I whole-heartedly endorse, and I look forward to 
hearing your views, as I do to the views of the witnesses on our second 
panel.
    Specifically, this bill seeks to set in statute the term of the 
NASA Administrator, create a Board of Directors for the Agency, and 
direct that Board, among other functions, to create a budget for NASA 
that would be transmitted to the Congress each year in advance of the 
President's fiscal year budget request.
    It has been said that this bill attempts to model NASA's management 
on that of the National Science Foundation. However, NASA and NSF are 
very different agencies.
    One of NSF's main functions is issuing grants for research; NASA, 
on the other hand is an R&D agency with multiple missions and 
development programs, as well as operational responsibilities for the 
International Space Station.
    And the National Science Board, which governs NSF jointly with its 
Director, does not provide a budget to the Congress independently of 
the Director, as is proposed in this legislation. I would also note 
that a statutory term for the Administrator doesn't necessarily ensure 
stability at an agency. For example, the current NSF Director has 
announced his intention to leave NSF only two and a half years into his 
six-year statutory term.
    Yet these proposals don't suggest to me improvement or models of 
agency administration, they suggest a desire to mimic how businesses 
are run, and I don't see the value in turning NASA into a business.
    And while I also have questions about the implications of these 
proposals for the implementation of Congressional direction spelled out 
in legislation, as well as potential unintended consequences, I have a 
bigger concern right now for NASA, the rest of the Federal Government, 
and the Nation as a whole.
    We are now days away from the possibility of drastic cuts caused by 
sequestration.
    So while today's hearing will consider legislation that seeks to 
stabilize NASA's direction, the sad truth is, we in the Congress have 
and are continuing to contribute to the agency's funding instability 
and a mismatch of resources with expectations.
    Year after year, NASA has had to redirect scarce resources and time 
to replan programs and projects, not because of instability at the top 
of the agency, but because of the uncertainties caused by flat or 
decreased funding for the agency, continuing resolutions, and, now the 
threat of sequestration.
    If we expect NASA to do great things, as I know its employees can 
because they do so each and every day, then let's give it the resources 
it needs and when it needs them.
    A few months ago, I watched Curiosity land on Mars, along with 
dozens of young people at the Goddard Space Flight Center. Their 
enthusiasm was electrifying; they are this Nation's future.
    We can't let the passion and dreams of those young people evaporate 
due to our inability to adequately fund NASA.
    And in that regard, Mr. Chairman, I think we need a challenging and 
compelling goal for our human space program, one that will allow our 
young people to know where we are aiming and when we want to get there. 
We need a goal that will bring out the best in us as a Nation, as great 
national challenges have done in the past.
    NASA's future and its value both to our Nation and to the next 
generation are where I hope to focus this subcommittee's attention as 
we go forward in the 113th Congress.
    I yield back the balance of my time

    Chairman Palazzo. Thank you, Ms. Edwards.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Okay. The Chairman does want to be recognized. I yield him 
as much time as he may need.
    Chairman Smith. Mr. Chairman, thank you for holding this 
hearing today, the Space Subcommittee's first of the 113th 
Congress. The work that you, Ranking Member Edwards and the 
Members of this Subcommittee do will have a lasting impact on 
our Nation's continued leadership in spaceflight. Every time we 
convene in this room, the phrase, ``Where there is no vision, 
the people perish'' should guide us, for those words from 
Proverbs are forever true.
    Today, a question exists about NASA's vision, namely, 
whether there is one. But we must also recognize that even a 
vision, without a means to achieve it, can be fruitless and 
frustrating.
    So today I would like to thank two of our colleagues who, 
in introducing the Space Leadership Act, continue to show 
leadership on behalf of our Nation's space program. My 
colleague from Texas, Congressman John Culberson, has been an 
advocate for exploration for many years and I look forward to 
working with him to see that many of the missions and 
priorities we share are accomplished. And a long-time personal 
friend, Representative Frank Wolf, holds a key position as 
chairman of the Commerce, Justice, Science Subcommittee on the 
House Appropriations Committee. Our working together will be 
critical to put NASA on the right track for long-term success. 
They come here today to offer suggestions and solutions to many 
of the challenges that NASA faces. We welcome their thoughts on 
this discussion.
    NASA too often is hampered by short-term decisions that 
have a long-term negative impact. We must step back, look at 
the agency as a whole, and help put it on a path to achieve 
worthy goals on behalf of our Nation. I hope our work in this 
Congress will result in a vision we can all work toward to 
inspire future generations.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Lamar Smith

    Chairman Smith: Mr. Chairman, thank you for holding this hearing 
today, the Space Subcommittee's first of the 113th Congress.
    The work you, Ranking Member Edwards, and the members of this 
subcommittee will do will have a lasting impact and ensure our nation's 
continued leadership in spaceflight.
    Every time we convene in this room, the phrase, ``Where there is no 
vision, the people perish'' should guide us, for those words from 
Proverbs are forever true.
    Today, a question exists about NASA's vision, namely, whether there 
is one. But we must also recognize that even a vision, without a means 
to achieve it, can be fruitless and frustrating.
    So today I would like to thank two of our colleagues who, in 
introducing the ``Space Leadership Act,'' continue to show leadership 
on behalf of our nation's space program.
    My colleague from Texas, Congressman John Culberson, has been an 
advocate for exploration for many years. I look forward to working with 
him to see that many of the missions and priorities we share are 
accomplished.
    And a long time friend, Rep. Frank Wolf, holds a key position as 
Chairman of the Commerce, Justice, Science Subcommittee on the House 
Appropriations Committee. Our working together will be critical to put 
NASA on the right track for long term success.
    They come here today to offer suggestions and solutions to many of 
the challenges that NASA faces. We welcome their thoughts and this 
discussion.
    NASA too often is hampered by short term decisions that have a long 
term negative impact. We must step back, look at the Agency as a whole, 
and work to put it on the long term path to achieve worthy and 
inspirational goals on behalf of our nation.
    I hope our work in this Congress will help clarify a vision we all 
can agree upon and work toward to inspire future generations.

    Chairman Palazzo. Thank you, Mr. Chairman.
    Now, if there are any Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our first panel of 
witnesses, which includes the two sponsors of the bill, the 
Hon. Frank Wolf, the Congressman from the 10th District of 
Virginia and chairman of the House Committee on Appropriations 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies, and the Hon. John Culberson, the Congressman from the 
7th District of Texas and a Member of the House Committee on 
Appropriations.
    I now recognize Chairman Wolf to present his testimony--
okay then. Congressman Culberson, you are now recognized.

           STATEMENT OF THE HONORABLE JOHN CULBERSON,

            MEMBER, HOUSE APPROPRIATIONS COMMITTEE,

                 U.S. HOUSE OF REPRESENTATIVES

    Mr. Culberson. Chairman Wolf, as always, is very gracious 
for this has been a team effort, and I want to thank you, 
Chairman Wolf, for all your hard work and support in this 
legislation and for NASA and the sciences. Thank you, Chairman 
Palazzo and Ranking Member Edwards, Chairman Smith, Chairman 
Hall, Mr. Rohrabacher, all the Members of the Subcommittee. It 
is a privilege to be here with you.
    We are particularly honored that this is the first hearing 
that you had this year and to start off with what has truly 
been a labor of love for Chairman Wolf and I. We are all here 
in this room because we love NASA. We are devoted to space 
exploration and scientific discovery. We want to make sure 
America preserves its leadership role in the world as the best 
space program on Earth, and it is a strategic--it is absolutely 
essential for our strategic security that America be able to 
preserve and protect the high ground.
    As you said, Ms. Edwards, this legislation is designed to 
achieve those goals, and by focusing on NASA governance, on 
trying to make the agency more professional and less political 
by giving them greater stability, as you said, by doing 
everything that we can as policymakers to encourage the 
professionals, the scientists, the engineers, the astronauts at 
that agency to do what they do best, and as much as we can do 
so, to get out of the way and help them achieve what they have 
done so well for all our lives.
    I am a native Houstonian. Some of my earliest and best 
memories are of the space program. I don't really have any 
memory of Mercury but I certainly remember some of the early 
Gemini missions and the excitement of the Apollo missions. I 
got my first telescope when I was 12. I mean, this has been an 
important part of my life, and there is no other agency other 
than the Pentagon, the Defense Department, the Marine Corps, 
our wonderful men and women in uniform, there is nothing else 
the Federal Government does can really inspire the human heart, 
can lift people up and truly inspire whole generations of young 
people to be their best and to achieve beyond what they ever 
thought possible than NASA.
    They have done a magnificent job for so long, but they have 
been hamstrung, as we all know, by pillar-to-post funding, the 
budget cycle that forces them as part of the Executive Branch 
to honor the budget request put forward by the President, and 
yet they know in the back of their mind that what they are 
really going to finally be able to spend is the money that 
Congress appropriates that we all agree to with Chairman Wolf's 
leadership and his generosity not only for the Webb Space 
Telescope, of course, but Frank has been an extraordinary 
friend of the National Science Foundation and NASA. In tough 
budget times, Chairman Wolf has protected the funding that this 
Nation needs to invest in critical scientific research and 
NASA, and then the agency when we finally get the 
appropriations bill done is safe for another few months and 
another year.
    We have watched this--I got here in 2001, and as I learned 
about the budget process, the appropriations process, the 
funding cycle and the pillar-to-post way that NASA has to 
operate, it just became increasingly unacceptable, and I 
provided you with a chart that I actually got from--I learned 
from Mike Coats, the Director at the Johnson Space Center, 
wonderful, good man, who has been with NASA about 25 years, 
recently retired, and Mike told me that in the 20 years he had 
been at NASA, he has seen, I think--I don't have it here in my 
testimony--I think it was about 25 programs created and 
canceled over that 20-year period that cost NASA about $20 
billion, and it is just unacceptable. You can imagine these 
people, these rocket scientists and engineers and astronauts 
that devoted their life to exploring space and they are given a 
chance to do it, and then the Congress or the budget rips it 
away from them. It is destructive to the morale of the space 
program, destructive to the psyche of the agency, destructive 
to the psyche of the country, and frankly, destructive to them 
achieving their mission and terrifically expensive in terms of 
dollars and cents wasted.
    In analyzing this with Chairman Wolf's help, we came up 
with this concept based on the way--there is a couple of key 
pieces to this, Members, and I want to thank the Subcommittee 
staff for helping through this. But one of the most--a couple 
of the most critical pieces are that we need to give NASA the 
ability to design and build spacecraft and rockets in the same 
way that the Navy, for example, designs and builds submarines 
and aircraft carriers with stability and predictability. Not 
only will that obviously save money but allow the agency to 
focus those engineers and scientists on what they do best. The 
model for that, I think, is naval reactors. They are the gold 
standard as we have discovered, that when it comes to designing 
a nuclear reactor, paying for it and then building it under 
budget and right on target, naval reactors is the gold 
standard. And so we are looking to do that as well. I have 
eight seconds left. That is why you see the budget 
recommendation come from the professionals at NASA directly to 
Congress so that you and Chairman Wolf can actually see the 
honest numbers. What does the agency really think they need to 
achieve their goals? That is critical.
    The other critical piece is you allow multiyear procurement 
on the solid rocket boosters. NASA can buy those over several 
years in the same way as the Navy when they buy engines or 
parts for aircraft carriers or submarines, there is multiyear 
procurement. That is critical. The term of the Director, 
certainly fluid. The idea is to model that after the FBI 
Director to overlap Administrations. The idea for the board of 
directors, modeled after the National Science Foundation so 
they would operate like the board of directors, for example, 
the policymakers at a school board or the National Science 
Foundation, for example. Here is the broad, general guidelines 
we think the agency needs to follow, leave that up to the 
agency Director, and obviously Congress would have the final 
say in where NASA is going. But again, leave it up to the 
professionals.
    And the model there--and finally, I will quit with this and 
pass it to Chairman Wolf, that we are really--I really 
encourage the Committee to follow is the Decadal Survey for the 
Planetary Sciences. You get all the best scientists together in 
a room and they hash it out--where should America--where should 
the priorities be when it comes to the next space telescope or 
planetary exploration or Earth exploration or terrestrial outer 
gaseous, the giant planets, and they produce a list and we 
should follow that as policymakers where we have got the best 
and the brightest telling the Congress, telling the country 
here is what NASA's vision is and what we think, here is an 
honest budget submission, here is our goals as in the Decadal 
Survey, and here is an honest budget submission that we believe 
is necessary to achieve those goals that doesn't go through 
OMB, that doesn't go through the bean counters at the Office of 
Management and Budget, that is given directly to you, given 
directly to Chairman Wolf so we actually know what is necessary 
to keep America's space program the best in the world.
    Thank you very much.
    [The prepared statement of Mr. Culberson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Palazzo. I now recognize Chairman Wolf for his 
testimony.

           STATEMENT OF THE HONORABLE FRANK R. WOLF,

              CHAIRMAN, SUBCOMMITTEE ON COMMERCE,

             JUSTICE, SCIENCE, AND RELATED AGENCIES

                HOUSE APPROPRIATIONS COMMITTEE,

                 U.S. HOUSE OF REPRESENTATIVES

    Mr. Wolf. Well, thank you, Mr. Chairman, and thank you for 
the hearing.
    This is not a partisan issue. The problem has been under 
both Republican and Democratic Administrations, and the 
original model too was also Director Mueller of the FBI, who 
has continued now and I think ends this August.
    In the ten years since the tragic space shuttle Columbia 
accident and the decision was made to transition to a new human 
spaceflight system, NASA has had three different administrators 
and two completely different shuttle replacement programs. 
Because NASA's human spaceflight plans were yet again abruptly 
altered at the start of the Administration, the United States 
will now be without a shuttle replacement until 2017, more than 
six years after the retirement of the space shuttle, and that 
is just for this last decade.
    When we first introduced the bill last fall, and it was 
really Mr. Culberson's idea, the National Research Council 
Committee charged with reviewing NASA's strategic direction, we 
asked them to look in a nonpartisan--I am not even sure who 
they were exactly but they were the top people. They were 
directed for the creation to come up with these 
recommendations. They think this fits in precisely with what 
they are looking at.
    It does not surprise anyone on the Committee to know that 
the NRC Committee's final report, released late last year, 
found that NASA currently has no strategic direction. The 
problem has been significantly exacerbated with the 
cancellation of the Constellation program, which would have 
returned American astronauts to the moon. If you were to ask 
any NASA employee, astronaut, scientific or engineer or 
contractor, what the agency's top mission or goal is, you would 
get a confused look and you would get several answers. Some 
would say the moon, some an asteroid, others Mars, or as some 
would say, we are just really a technology development group.
    I think we can all agree, it is hard to make progress 
toward any goal if we don't know where we are going, much less 
when and how we are to get there. This has plagued NASA. Again, 
this is not an attack on any Democrat or Republican or anyone. 
It has just plagued them really for the last 20 years.
    By the time each Administration terminates the last program 
and gets its favored new strategy in place, years are lost and 
billions of dollars of tax dollars have been wasted, and each 
time it happens, the American people are no closer to having a 
world-class space exploration program that they have been 
promised. I expect that this decade will be the make-or-break 
moment for the U.S. leadership. Maintaining our leadership in 
space is critical because space remains the ultimate high 
ground for our national security. It also has significant 
impact on the economy and on our competitiveness.
    Notably, the NRC Committee found that no country shares the 
current Administration's interest in going to an asteroid. 
Instead, they all want to join an effort to go to the Moon. So 
the United States can either lead the effort or another country 
will step in in our absence, which I think would be very 
unfortunate, and that country is China, which is a direct 
threat to the national security of our country.
    The reforms in the bill draw on the best practices of other 
agencies, Mr. Culberson said National Science Foundation, also 
the director of the FBI. It will ensure an administrator's term 
spans two Administrations, maybe two Republican 
Administrations, two Democratic Administrations, a Republican 
and Democrat, but that person will be in office long enough to 
be held accountable for long-term projects.
    The board of directors concept is based on the National 
Science Board and there are similar boards in the FBI that kind 
of look at these things the same way. They are not given the 
notoriety but they are there. The direct budget submission to 
Congress is based on other agencies. Legal Services sends a 
budget directly to the Congress after they go to OMB. I think 
if we make these changes, the odds of American maintaining its 
preeminence in space for the 21st century will dramatically 
improve.
    In closing, I know that NASA workforce and contractors are 
capable but you can't keep changing back and forth concepts, 
ideas and administrators, and so by having the six-year term 
and doing the other things, I think it would really be good for 
the country.
    [The prepared statement of Mr. Wolf follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. I thank the panel for their valuable 
testimony. The witnesses are now excused, and we will move to 
our second panel.
    At this time I would like to introduce our second panel of 
witnesses. Our first witness is Mr. Thomas Young, who is a 
former Chairman of the Board of SAIC and the former Executive 
Vice President of Lockheed Martin Corporation. Prior to joining 
then-Martin Marietta, Mr. Young was Director of the National 
Aeronautics and Space Administration's Goddard Space Flight 
Center in Maryland from 1980 to 1982. During a 12-year career 
with NASA, he served as Deputy Director of the Ames Research 
Center in California, Director of the Planetary Program in the 
Office of Space Science at NASA headquarters in Washington, 
D.C., and as Mission Director of the Project Viking Mars 
Landing program at Langley Research Center in Virginia. Mr. 
Young received his bachelor of aeronautical engineering degree 
and a bachelor of mechanical engineering degree from the 
University of Virginia and a master of management degree from 
the Massachusetts Institute of Technology.
    Our final witness today is Mr. Elliot Pulham, the Chief 
Executive Officer of the Space Foundation, where he served in 
that role since 2001. Before joining the Space Foundation, he 
was Senior Manager of Public Relations, Employee Communication 
and Advertising for all space programs at Boeing, serving as 
spokesperson at the Kennedy Space Center for the Magellan, 
Galileo and Ulysses interplanetary missions, among others. Mr. 
Pulham is Chairman of the Hawaii Aerospace Advisory Committee, 
a former Air Force Civic Leader and Advisor to the Chief of 
Staff and Secretary of the Air Force and a recipient of the 
U.S. Air Force Distinguished Public Service Medal.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize Mr. Young to present his testimony.

               TESTIMONY OF MR. A. THOMAS YOUNG,

                EXECUTIVE VICE PRESIDENT (RET.)

                  LOCKHEED MARTIN CORPORATION

    Mr. Young. I am pleased to have the opportunity to present 
my views on the challenges and opportunities facing NASA today. 
I also recognize the importance of identifying actions that 
will mitigate some of these concerns.
    It is appropriate to note that there are many positive 
accomplishments of the civil space program and NASA that should 
be recognized. These include the completion of the 
International Space Station, which is a technological marvel, 
the development of a library of planets by Kepler in other 
solar systems, the landing of the Curiosity rover on Mars, and 
the incorporation of weather satellite data in models that 
accurately predicted the unusual left turn of Hurricane Sandy. 
These are but a few of the many recent accomplishments.
    There are concerns about the future of the civil space 
program that must be addressed in the upcoming NASA 
Authorization Act. I recognize that this hearing is one of many 
that will address these concerns.
    Before addressing the specific questions you cited for this 
hearing, I would like to offer my opinion as to some of the 
more significant issues facing NASA. I have been associated 
with the civil space program and NASA for more than five 
decades. I am more concerned today about its future than at any 
time during my involvement.
    Issues requiring attention include maintaining NASA as the 
premier space organization; maintaining the capabilities of the 
U.S. industry to be NASA's partner in implementing challenging 
space projects; achieving balance between the NASA program and 
the budget; establishing a credible human exploration program; 
recognizing the importance of projects focused upon 
understanding dark energy and dark matter, searching for Earth-
like planets in other solar systems, returning samples from the 
surface of Mars, expanding our climate knowledge, et cetera as 
identified in Decadal Surveys; realizing the science and 
research potential of the International Space Station--while 
ISS is clearly an engineering and diplomatic success, it is in 
danger of being a science and research failure; assuring 
sustainability of strategy and programs over many years and 
political cycles. Resources in terms of money and, maybe even 
more important, political--excuse me--human talent have been 
wasted on canceled projects and aborted strategy to the degree 
that it is a national embarrassment. Depoliticizing NASA must 
be addressed. NASA has been politicized to the extent that the 
capabilities of NASA and the success of the civil space program 
are being adversely impacted.
    While others can add important concerns to my list, I 
believe it is adequate to begin the discussion of mitigation. I 
am a strong believer that a foundation of the many successes of 
the civil space program is the continuity of expertise 
maintained by NASA and the implementation expertise of 
industry. These capabilities are maintained and enhanced by 
undertaking challenging projects. Examples include Curiosity, 
the James Webb Space Telescope, SLS and Orion. Studies, 
technology pursuits and overseeing others are important but 
will not maintain NASA and industry as world class.
    Having more program than budget is wasteful, leads to 
program cancellations and encourages taking excessive risk. All 
programs need to be budgeted to their most probable cost, and 
when the aggregate cost of all activities exceeds the budget, 
the lowest priority activities need to be terminated.
    Leadership has failed to establish a credible human 
exploration strategy. A starting point is to recognize that the 
only practical destinations are the Moon, the two moons of 
Mars, and Mars. A major effort is needed to establish a 
consensus as to the United States strategy for human 
exploration. This must be followed by funding the strategy. A 
strategy that is not funded is not a strategy.
    There are a small number of profound questions for which 
the civil space program is on the cusp of greatly increasing 
our knowledge. These include: Are we alone? What is dark energy 
and dark matter? What is the future of our climate? Decadal 
Surveys have identified projects focused upon these profound 
questions. The exploration of these questions should be treated 
as unique opportunities. I appreciate the economic challenges 
our country faces. However, this does not mean we should not 
pursue knowledge in extraordinarily important areas for which 
we have a leadership position.
    ISS is in danger of becoming a science and research 
failure. A significant portion of the NASA budget is spent on 
the International Space Station and its supporting activities. 
This concern requires urgent attention. A senior review should 
be established near the end of this decade to determine if the 
return justifies the continuation of ISS beyond 2020. This will 
put the ISS community on notice as to what must be done with a 
prudent deadline.
    The last two concerns on my list are the most challenging. 
They require leadership and a seat at the table when national 
issues are being discussed. The proposed Space Leadership Act 
is in response to these concerns and the sponsors are to be 
applauded for their dedication to finding solutions. If the Act 
could be implemented as intended and all involved participants 
agreed to abide by its principals, it could have a significant 
positive impact. I worry that approval will be difficult and 
implementation is subject to too many unintended consequences.
    If I were king for a day, I would require that the NASA 
Administrator be someone with demonstrated superior executive 
leadership credentials. The Deputy Administrator would be 
recommended by the Administrator and be someone with 
demonstrated extraordinary technical and space project 
implementation skills. I would establish a National Space 
Council to oversee strategy implementation, assure program 
continuity, assure that the program and budget are in balance 
and be an advocate for a strong NASA and space industry. I 
would limit the OMB responsibility to funding the approved 
strategy and not be responsible for the strategy or the tactics 
of implementation.
    I believe NASA and the civil space program are on a 
declining trajectory. The next NASA Authorization Act must 
continue what was begun by the current Act of reversing this 
downward trend.
    Great nations do great things. The United States is a great 
Nation, and the civil space program fits the definition of 
great things. Thank you.
    [The prepared statement of Mr. Young follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. Thank you, Mr. Young.
    I now recognize Mr. Pulham for five minutes to present his 
testimony.

                TESTIMONY OF MR. ELLIOT PULHAM,

                    CHIEF EXECUTIVE OFFICER,

                      THE SPACE FOUNDATION

    Mr. Pulham. Chairman Palazzo, Ranking Member Edwards, 
Subcommittee Members and staff, thank you for your service to 
our Nation and thank you for the opportunity to testify here 
today. The Space Foundation is a 501(c) 3 nonprofit, non-
governmental organization and our mission is to advance space-
related endeavors to inspire, enable and propel humanity. 
Implicit in this mission is our belief that the exploration, 
development and use of space inspire our Nation and the world, 
enables us to dare and dream greatly, and propels us 
confidently into the future.
    On December 4, 2012, the Space Foundation released its 
report on the future of NASA, entitled Pioneering: Sustaining 
U.S. Leadership in Space. All of you have received a copy of 
this report, and I will just speak briefly about it today while 
also talking about the ``connective tissue'' between this 
report and the contents of the Act.
    America's civil space enterprise has had to deal with many 
challenges over the decades, often technical, but even more 
often the super-heated challenges of politics and the mundane 
obstacles caused by public administration. NASA isn't the only 
organization to have to deal with these issues, but we feel 
that NASA's very special nature has made these challenges more 
painful and difficult than perhaps they are for other Federal 
agencies. NASA is, without a doubt, the highest profile and 
largest entity in America's civil space enterprise. All of us 
in this industry, and the Members and staff of this 
Subcommittee, share a passion for NASA and the amazing work 
done by the dedicated men and women who are part of the 
American space exploration enterprise whether they wear a NASA 
badge, or are part of the crucial industrial base that 
underpins everything NASA does. We want them to succeed. That 
is why we are all here today.
    Over the decades, there have been many reports from many 
groups, commissions and committees that looked for ways to help 
the agency succeed in its various missions. The Space 
Foundation found that many of these focused on fixing a single 
pressing problem or failure, on giving NASA a single, targeted 
destination to work towards, or asking NASA to commit itself to 
developing some sort of a new technology, all of which are 
interesting, all of which are meritorious ideas. But, in our 
view, most of these reports and commissions arose at specific 
points in time, to address specific concerns of the day. In a 
larger sense, dissatisfaction over our Nation's inability to 
deliver another Apollo moment has persisted for 40 years since 
Apollo 17 returned to Earth. When we contrast the almost 
visceral drive that we all have to see NASA succeed, with the 
reality of a space program that has retreated to the point 
where America's space agency can no longer even launch a crew 
to the International Space Station, the Space Foundation 
concluded that there must be some pervasive, systemic problems 
for NASA to have experienced all the challenges it has since 
the end of Apollo. We believed we could discover and articulate 
those and engage in a process that was self-funded, self-
directed, over a year long, and serving no master except our 
mission to inspire, enable and propel humanity.
    Thus, from the very beginning, no data was off limits to 
us, our conclusions were not constricted or pre-ordained, and 
we made it a point to be inclusive in our efforts. We reviewed 
and incorporated data from all the many varied reports as well 
as lots of data on what other agencies do, what other 
government tools are out there for us, and very important to us 
is, we were able to conduct our report operating under a 
Chatham House Rules approach, which allowed us to have candid, 
productive, no-holds-barred, off-the-record discussions with 
experts that we could then synthesize to deliver a view that 
ranges not only from space experts across the United States but 
indeed from around the world.
    Our research delivered us to one conclusion, and that was 
that our fundamental conclusion has been that the plethora of 
competing and sometimes conflicting missions that have crept 
into the agency's portfolio over the years need to be sorted 
and rationalized against a single organizational purpose. Not a 
benefit, or an array of constituencies, or a destination, but a 
single, clear purpose--call it a purpose, call it a mission but 
something that consistently and clearly guides decision-making 
process.
    In short, what might call this management 101. Put NASA on 
a strategic pathway, establish a clear and unwavering purpose, 
establish the management structure that allows you to pursue 
that purpose, and then put in place the resourcing plans that 
assure success. We believe this purpose to be what we call 
pioneering. We define pioneering as being among the first to 
enter a region to open it for use and development by others, 
and being of a group that builds and prepares infrastructure 
precursors in advance of others. What we are talking about is a 
solid, sustainable, repeatable process that stimulates jobs, 
technology and innovation, strengthens our industrial base, 
projects soft power abroad and delivers all of the inspiration 
that we need so that our Nation once again values science, 
technology, engineering and mathematics.
    We concluded many of the same things that are in the SLPA. 
Among our key recommendations were depoliticizing the agency by 
establishing a renewable term for the Administrator, 
establishing formal short- and long-term planning and guidance 
framework, similar to the board of directors that has been 
discussed, deploying financing, appropriation and procurement 
tools found in other parts of government to permit NASA the 
flexibility it needs to succeed. We did not want to try and 
invent something out of whole cloth. We felt that there were 
plenty of successful models elsewhere in government.
    Our Pioneering report is 70 pages long. I won't go into the 
recommendations any more than that other than I would like to 
just comment on a couple of the similarities with the SLPA.
    We agree with the changes that are needed to get to the 
heart of this incompetence, indecision and waste, and we did 
look at the FBI Director's term but the term that we thought 
was most interesting and applicable was that of the Director of 
Naval Nuclear Propulsion. We suggest a five-year renewable term 
for the NASA Administrator along the lines of this position 
because we thought it is a good example. It is a very technical 
enterprise. It is the gold standard, as has already been said, 
and it requires a person very similar to the kind of person 
that we need heading NASA. We also share the view that many of 
NASA problems are compounded by the mechanics of the budgeting 
process. We argue that many of the most effective mechanisms 
for addressing this issue already exist in the form of funding 
mechanisms used elsewhere in government, for example, the 
revolving fund used in the National Defense Sealift Fund.
    The two documents, both ours and the Act, agree that 
Decadal Surveys are good ways to order priorities within 
disciplines and provide a model for arbitrating technical 
disputes, and we specifically propose that NASA employ a 
regular and consistent planning process to produce short-, 
medium-, and long-term plans. In particular, we recommend that 
the establishment of oversight and appropriations activities 
that the Constitution requires of Congress can be supplemented 
by this detailed examination by this board of directors and by 
reviews every five and ten years. Whereas the Act would propose 
essentially a quadrennial review, we have proposed a five-year 
review.
    So like the sponsors of the Space Leadership Act, we agree 
that there is no single, obvious, point solution, but we as a 
Nation need to have a clear recognition of NASA's purpose going 
forward.
    Thank you very much for your attention and for this 
opportunity.
    [The prepared statement of Mr. Pulham follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. I thank the witnesses for being available 
for questioning today, reminding Members that Committee rules 
limit questioning to five minutes. The Chair will at this point 
open the round of questions. The Chair recognizes himself for 
five minutes.
    This is for both of you. What do you understand NASA's 
mission to be currently, and what do you think it should be?
    Mr. Pulham. Mr. Chairman, I think that is one of the 
problems is that we don't understand what NASA's current 
mission is. If you look in the Space Act, there are 26 
different strategic priorities. I would submit that if you have 
26 priorities, you have no priorities. We therefore have come 
up with this Pioneering Doctrine as to what we think should be 
the underlying purpose. It establishes a four-step process for 
accessing, exploring, utilizing and then very importantly 
transitioning so that NASA can get on to the next exploration.
    Mr. Young. I think important to your question is to kind of 
reflect on why do we have a NASA, and I personally think that 
we have a NASA because we need an organization who is capable 
of carrying out spaceflight operations or activities. Most of 
the other stuff that NASA does--and I am only talking about 
space, not the aeronautics part--but other activities are in 
support of that function. Except for the spaceflight 
uniqueness, most other things could be done some other way. So 
I think that the country established a NASA because it needed 
someone to be the leader and to have the excellence in 
executing spaceflight missions.
    Now, if you say what is the purpose of NASA, I think NASA's 
fundamental purpose is aimed towards, one, expanding our 
knowledge that we can acquire through space projects, to 
secondly provide leadership for our country and the execution 
of space projects, and I think thirdly, to be an inspiration to 
our people and particularly our young people as to what really 
are the factors that make this a great country and a great 
opportunity for them to personally pursue as they go through a 
process of education and deciding on career paths.
    Chairman Palazzo. Now I would like to ask this pretty broad 
question but it is an important question. What advice would you 
like us to consider as we begin the process of reauthorizing 
NASA? Mr. Young?
    Mr. Young. I tried to touch on that, you know, identifying 
eight items. There are probably more. But I think as you go 
about this process, each of those need to be taken into 
consideration, and I don't want to go back through it but let 
me hit a couple.
    I personally am not as--I am not as focused on any 
particular project as much as I am on the need of having an 
extraordinary NASA and an extraordinary industry, so I think we 
need to be more long term as opposed to short term in our 
views. I do--I talked about International Space Station. I 
chaired the Advisory Committee for many years. I chaired an 
independent review of its management structure. I am advocate 
of the International Space Station. As I said, it gets a check 
in diplomatic success, a check in engineering success. We have 
a long ways to go in the science and the research, and we are 
spending a lot of money on it and we need to be sure that we do 
everything we can to maximize its return, and if we can't, that 
we go in another direction.
    I have got one other item. I touched on things like, are we 
alone and dark energy. I don't know quite how to say this in 
today's environment but I think there are times to be bold and 
there are times to be austere, and you need to be bold when the 
returns are special, and in my view pursuing the question of 
are alone is such an incredible question and Earth-like planets 
and bringing samples back, and, you know, looking at some of 
the moons of Jupiter. I mean, we are on the cusp of really 
learning a lot in this regard. Dark energy and dark matter, 
most of what it is out there, we don't know what it is, and I 
really tried to phrase it that way, it is always hard to do, 
but I think for profound issues, being bold is to be applauded. 
On the other hand, there is time to be austere. So I don't mean 
that you open the checkbook, so to speak, but I do think that 
it is critical with the resources that we invest in this area 
that we invest it in those areas that have the highest return 
to the country and knowledge in these areas stacks up high, in 
my regard, as things to be pursued.
    So I guess what I am really trying to say is, I actually 
think that the Authorization Act, the last one I thought had a 
measurable impact. It didn't complete the story. I don't want 
to imply that at all. But it had a measurable impact of 
worrying about having things that are constructive to be done 
by NASA and by the industry and looking at some of the items. I 
think this Act is absolutely critical to responding to the 
concern I have about being on a trajectory that is negative as 
opposed to positive. Thank you.
    Chairman Palazzo. Mr. Pulham, briefly, if you would like to 
add some comments?
    Mr. Pulham. Yeah, Mr. Chairman, just two different ways to 
come at this, with the heart and with the head. In our report, 
we have outlined at great length right down to a line-by-line 
rewrite of the Space Act, what all the technical things are 
that need to be done. But I think that what is more important 
here is that the space enterprise uniquely has demonstrated in 
the past and I believe can demonstrate again an ability to lift 
our Nation as nothing else that we do. It inspires our 
children. It encourages us. It demands of us that we be the 
best that we can be as a country, and I think a visible, 
strong, exciting space program that ignites our interest, that 
gets us interested in questions of our existence, that gets us 
interested in studying the hard courses and doing the hard 
things and demonstrating the American character, those are the 
things we should be looking for in our space program.
    Chairman Palazzo. Thank you. I now recognize Ms. Edwards 
for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you both 
for your testimony and for your passion.
    In light of Mr. Pulham's comments that he just made, Mr. 
Young, I wonder if you could talk about the idea of a 
destination because I think that is some of the push and pull. 
Should NASA have a big goal that is a destination or more 
broadly as the Space Foundation report suggests, to carry out 
the multiple kinds of functions that you need for a robust 
space program? I would like to hear your thoughts about that.
    Mr. Young. I think it depends on which part of the program 
you are talking about. I think that for the science program, 
you know, our basic thrust is to understand our solar system 
and the universe in which we live, and there are tactics that 
are identified in the Decadal Surveys as to how to go about 
that. Human spaceflight, in my view, is different, and human 
spaceflight can't be just about building rockets or building 
spacecraft. It has to be about defining how they are going to 
be used. And so I am--I have heard this discussion a lot. I am 
an advocate in human spaceflight for destination. I don't see 
how this is ridiculous but Apollo had a destination. So human 
spaceflight I think is a different kind of an exploration than 
the robotic. The robotic is more of a program. The human is 
more focused on an activity.
    So I believe that a destination is critical, and as I said, 
after having thought about it quite a lot--I know this goes 
beyond what you are asking--but I originally thought an 
asteroid really was a pretty good idea. It didn't have any 
gravity. It was probably pretty easy. That is not really true. 
An asteroid mission is a hard mission. It is long duration. 
There are not many of these things. They are small. You don't 
walk around on them. You kind of swim up to them. And so that 
has caused me to rethink this destination, and that is why I 
really touched on my comments. I think that for human 
spaceflight exploration, there is a small set of destinations 
in our lifetime. It is the Moon, it is Phobos, it is Deimos and 
Mars. They are significantly different. An asteroid, Lagrange 
Point can all be steps in pursuing something such as that, but 
they are not destinations that are either, in my view, 
practical nor are they destinations which inspire.
    Ms. Edwards. Let me just ask both of you, in order to get 
someplace and to do these big programs, one of my big 
frustrations with NASA is that it is tough to do science on a 
year-to-year, what's my budget going to be, and I think many of 
us share that frustration. I think certainly within the agency 
and the industry that is true. And I have long been curious 
about what it would mean for the big programs to construct a 
budget or a process that would allow for that kind of 
multiyear, you know, don't have to ask every single year 
``what's my budget going to be,'' so that I can manipulate the 
program and the work to fit that budget but to work toward the 
science.
    Can you share with me, especially from an industry 
standpoint, Mr. Young, what that would mean both for the 
agencies and for the contractors to have a little bit more 
certainty when it comes to the science and whether you think 
that would also contribute to more realism in the budgets that 
are presented for these big flagship programs?
    Mr. Young. Well, I think the answer is yes. Let me comment 
a little bit. We actually had that, and whether or not we have 
gotten off with Mars. Mars was really a program, not a project. 
And we recognized that Mars was one of the really challenging 
scientific pursuits of our era, and we learned that every step 
along the way we built on what we learned from one mission to 
what we did with another mission. And I think that through the 
Decadal Surveys and others, we had a program that was laid out 
pretty much into the future and maybe not funded into the 
future but I think the stability was pretty good. I must admit 
that some of the actions in the last year have at least 
interrupted that process, whether we are back on it or not, I 
don't really know, but leading up ultimately to a sample 
return.
    So I think Decadal Surveys, which are over ten-year time 
frames, they provide the basis of that. I had the privilege of 
being both on the Astronomy and Physics Decadal Survey and the 
Planetary Decadal Survey, so I was able to observe firsthand 
incredible debates that go on in that process, and the results 
really are roadmaps and they are well thought out, well 
supported roadmaps, so I am with you. I think a science 
program, I can't see any advantage to juggling it every year, 
so to speak. It is clearly a benefit from stability. And back 
to industry. I mean, the key to a success in industry is a 
stable strategy and a stable implementation plan that responds 
to new information but doesn't respond to gee, I would like to 
rethink it again.
    Ms. Edwards. Thank you, and my time has run out, but 
eventually I look forward to hearing from Mr. Pulham on this 
too.
    Chairman Palazzo. I now recognize Mr. Rohrabacher from 
California for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
would just like to be on record as thanking my colleagues, Mr. 
Culberson and Wolf, for taking into consideration some of the 
concerns that I had toward their legislation as they were 
developing it, and I just want to thank them very much for 
taking those concerns seriously.
    A couple things that I would just like to focus on here for 
a moment. Mr. Young, you are talking about the depoliticizing 
NASA, and you seem to be blaming politics for some of the 
failures that NASA has had over the years. Do you consider, for 
example, the X-33 program to have been a failure for political 
reasons? Was that a political failure?
    Mr. Young. It is a great question, and I had great fear you 
would ask that question. I have been trying in my mind to find 
something this politicized, and I am not sure I can do it but I 
will offer at least some of my thoughts on it. I think what has 
happened over my involvement with this activity is that an 
ambiguity as to direction allows a lot of people to be experts 
as to what it is that should be done, and what I mean by that 
is that I think that NASA--and not only NASA but I have 
recently led a review of the Nation's weather satellite 
programs and I find a similar circumstances--I think what 
happens is that perceived direction kind of comes from a lot of 
different areas because different people have kind of--
different organizations, different levels have a latitude of 
interpretation in the lack of a crisp, firm strategy or a 
direction. Now, I don't know whether that is what politicizing 
really means or not but that is what I see as the difficulty 
that exists.
    Mr. Rohrabacher. We have had some situations where NASA 
just was involved in a program that couldn't be done or where 
they were spending money in a way that was not effective and 
thus expanded the need for a higher budget, which we couldn't 
afford. Do you think those type of programs should--do you 
think we should just continue these programs?
    Mr. Young. No. In fact, we should not. You know, possibly 
maybe even should not have started them in some instances that 
we could go into it. No, I am not an advocate for continuing 
something that is determined to be either too difficult or 
without sufficient merit, and I really talk about the 
prioritization, but I do think that there are other examples 
where it has been this environment that I have talked about 
that has caused change in direction.
    Mr. Rohrabacher. Well, let us take a look, when you are 
talking about destination and purpose, which we just heard a 
little discussion on here, it is as if there are not 
destination in some way is so inspiring but certain purposes 
may not be inspiring. Just for example, I happen to find it 
very inspiring that NASA might have a mission to help us 
identify near-Earth objects and create some sort of a system 
that can defend us against that. I think that might be exciting 
to the public. It might be exciting to the public that NASA is 
doing something to help us create a program that would clear 
space debris. Now, these are not exploration and things that we 
can talk about in dramatic language and words pushing back the 
universe, but these are really necessary jobs that need to be 
done if we are going to protect our space-based assets, which 
our lifestyle is dependent upon. Our standard of living is 
dependent on GPS and weather satellites and all these. If we 
are going to have those space-based assets, we have to start 
worrying about the debris that is up there. Now, these are 
important projects that NASA could be doing, and it seems to me 
that while we are trying to put some pizzazz and things and 
make things look magnificent in keeping with the exploration of 
past Americans, and we have got some hard work to do as well as 
some of the more glamorous work to do.
    Mr. Young. I would agree. The only caution I would make is 
that I think they are important functions but they are--if that 
is the ultimate goal, not very inspiring.
    Mr. Rohrabacher. Well, I think--let me just state for the 
record, I know I have run out of time here, I think it is 
really inspiring that people who collect trash in my 
neighborhood are inspiring to me because I know what it would 
look like if they weren't doing their job. People who clear up 
space debris and permit us to have these assets up there are 
doing a--and it is a very tough job. I think that is inspiring. 
I think our young people would think it was inspiring just as 
much as trying to spend maybe hundreds of billions of dollars 
to go to Mars and maybe not being able to finish the mission 
because it was too costly to begin in the first place. Just a 
thought. Thank you very much.
    Chairman Palazzo. I now recognize Ms. Bonamici from Oregon 
for five minutes.
    Ms. Bonamici. Thank you very much, Chairman Palazzo, and 
thank you also, Ranking Member Edwards, for holding this 
hearing, and especially thank you to the witnesses.
    When we are here today talking about the mission and the 
management structure and the goals of NASA, an issue that I 
know is important to many of the Members on this Committee, as 
well as you who have testified, is the importance of STEM 
education, and I really want to talk about two different kinds 
of education here, and one of them that is important as we have 
this discussion is the education of the public about the 
benefits of space science and space exploration, and I have an 
example that I will share briefly, and this is from the Oregon 
State University, and it is just a folder about the NASA impact 
just through this one university system, how NASA funds make a 
difference: coastal imaging, ocean and wind dynamics, ocean 
productivity, phytoplankton health, long-term forest trends, 
education and mentoring, carbon exchange, protection of 
endangered whales--who would have thought--and leadership. And 
so just in this one university, there are all these impacts 
from NASA funding and a NASA partnership, and I think it is 
important that the public know how much space exploration and 
space science impacts our everyday lives.
    And I also want to talk a little bit about STEM education 
and the importance of inspiring young people. Mr. Pulham, did 
you in your report consider--I know you briefly mentioned STEM 
education. Did you consider the sort of knowledge gap that is 
developing with fewer students going into STEM fields and how a 
strong, vibrant space system will encourage young people to 
study in the STEM fields and go on beyond an undergraduate 
level?
    Mr. Pulham. Yes, Congresswoman. Thank you very much. We are 
in fact--a big part of what we do at the Space Foundation is 
involved in STEM education across the country and I do things 
like this, I do things like meetings, but there is nothing I do 
that is more energizing and rewarding than walking into a 
classroom or bringing a classroom of students into the Space 
Foundation where we have special, unique laboratories where 
they can drive robots, where they can see what is going on in 
real time in the cosmos. The implications of a program that 
excites the imagination are tremendous, and our young people 
have not become cynical yet like some of us who have been 
around for the political battles. If you stick them in a room 
with an astronaut, by golly, they are there with an astronaut. 
We sent a group of people to Fairbanks, Alaska, two weeks ago 
and the pictures and the stories that came back from the 
experience of having astronaut Leroy Chiao visit Fairbanks is 
just phenomenal.
    In fact, I will send you a copy of an article I have 
written that is going to be published in the next couple days 
that talks about this and it talks about the context of the 
recent meteor strike and my frustration with the fact that most 
of the news coverage started with a reporter asking an expert, 
now, what is a meteor. We should have all learned that in grade 
school. We should know what meteors are. We shouldn't have 
talking heads explaining it to us. And so the data behind how 
we have trailed off in education--and it is interesting, I know 
statistically correlation does not prove causation but you can 
track NASA spending and enrollment in higher education programs 
and higher degrees in science and technology fields. If you 
look at the Apollo ramp up and then look at the enrollment ramp 
up, then you see Apollo trail off and the enrollment trail off 
and then you see the space shuttle development and the 
enrollment goes up, this is really important to our 
competitiveness as a country.
    Ms. Bonamici. Thank you, and that wouldn't be surprising.
    Mr. Young, do you have comments about that?
    Mr. Young. I think that his comments were really quite 
appropriate. I did stumble across an item very, very recently 
to add to your list, which was quite striking to me. As I said, 
I have been leading a review of our Nation's weather satellite 
program. I am told that for Sandy, had we not had satellite 
data, it would not have--the models would not have forecasted 
the left-hand turn. The forecast would have been that Sandy 
would have gone up a normal path up the coast and there would 
have been no warnings to New Jersey and New York. So that is an 
interesting item to add to your list.
    Ms. Bonamici. That is significant. It does seem that NASA 
is uniquely positioned to inspire by actually showing the 
fruits of the labor and the programs that have worked inspiring 
our young people to go into STEM fields.
    And in my remaining few seconds, I just want to encourage 
all of my colleagues to keep those broad goals and impacts in 
mind as we consider this and other legislation in the 
Subcommittee. Thank you again, and I yield back.
    Chairman Palazzo. I now recognize Chairman Hall for five 
minutes.
    Mr. Hall. I thank you, and of course, I thank you for 
having this hearing and I thank Chairman Smith for giving us 
this new leadership. And I want to recognize Bill Smith, a 
long-time employee here that gave us good advice and was part 
of the family, Republicans and Democrats, as we pursued saving 
NASA and making some plans for NASA back when you could plan 
for NASA. And how valuable NASA is to us, to the youngsters, 
the people.
    And Mr. Young, well, Tom, you hit on it for almost these 
studies that they almost gave us the guidance. They really--
well, I think probably Norm Augustine is one of the really 
great people and a giant for this Committee and for giving us 
advice. He gave us the advice. He just said it was going to 
cost money and that was up to us to find the money, and that is 
exactly right. We have so many things to inspire us: the moon 
walks, Sputnik, medical gains, and great people, some that lost 
their lives trying to make this thing work. But the real 
problem is, the last several Presidents just haven't given us 
the money or helped us support the funds or have blocked the 
money that should have gone to NASA to carry out some programs 
that we had. And there was times when--and NASA is important as 
it is and how dangerous it would be if we lost this space 
station. What a national threat it would be to us. I just--it 
makes me sick when we don't have half of one percent of the 
budget for the thrust and it is outrageous that they couldn't 
find that money. The last three or four Presidents just didn't 
find the money that they could have found somewhere then, I 
think, or if we found it, they turned it down.
    And then my question to you is going to be, the President 
is presumably the chief policy setter for the direction of NASA 
but his direction early when he first got here, and I don't 
know who told him that, to run a line through Constellation, 
but that was devastating. It is not devastating to run the line 
through it. He had the right to do that, but he had the duty to 
give us a way to go if he was going to run a line through it, 
and he threw away $8 billion that Democrats and Republicans 
together had put together to spend at that time, and we just 
never recovered from that one line through there.
    You know, my dad was in World War I. I asked him who he 
remembered more than anybody else during that war, and I 
thought he would say General Pershing or Adolph Hitler, 
somebody like that. He said no, he remembered the bugler. They 
wanted to kill the bugler because he woke them up every 
morning, and even Broadway had a play on ``Someday I'm going to 
murder the bugler, some day they are going to find him dead and 
then I'll get that other pup, the one that wakes the bugler up 
and spend the rest of my life in bed.'' That was very popular 
at that time. Well, I would like to know who that other pup is 
that told the President to run the line through it at that time 
and not give us any guidance there after.
    So those are--I guess that gets me to my question. It is 
the general consensus that NASA has no overall direction at the 
moment, and my question is, the creation of an independent body 
like these two fine Congressmen have suggested as to whether or 
not that is the best way to ensure a solid direction for the 
space program. That doesn't solve the money. That would be 
harder to get now than it ever was. But we had so many great 
people that were leading us in, not just guys like Norm 
Augustine but Dr. DeBakey came and walked these halls when we 
came in one vote of losing the NASA program overall for us, 
came in one vote of it, and that old fellow walked every step 
out here and then we won the next vote by over 100 votes. We 
got back on the right track. But how do get on the right track? 
The Buzz Aldrins, the Neil Armstrongs, the late Neil Armstrong, 
General Tom Stafford, Gene Cernan and those that walked this 
way and gave so much.
    I guess how is the best way to ensure some kind of solid 
direction for the space program or something that Congress 
ought to demand from the President and as we demand to help him 
find the funds? I think I have used my question asking the 
question but----
    Mr. Pulham. Yes, Congressman, I agree with your 
observations. I think one of the things that troubled us and 
really tickled us into doing our report was the damage that 
occurs to NASA between Administrations and even from election 
to election as different people on committee memberships and so 
forth change, and the need therefore to have essentially a 
board of directors, if you will, that functions like a board of 
directors but it reports to Congress and it reports to the 
Administration but it is this board that provides that 
independent outside analysis that sets the strategy and ensures 
that all the activities of the agency are appropriate to that 
strategy so that we are actually accomplishing something.
    Mr. Hall. I think my time is up. If I have any to yield 
back, I yield it back to you, Mr. Chairman.
    Mr. Young. If I could just make----
    Chairman Palazzo. Mr. Young, go ahead.
    Mr. Young. --two comments. First off, Mr. Hall is my hero, 
so I sat and listened with great interest, and I worked five 
years for Mr. Augustine so my comment is the following. I think 
the Authorization Act that you are embarking upon is 
extraordinarily valuable. I think over time, they haven't had 
the impact that the last one had. The last one, in my view, 
fundamentally didn't solve all the problems but it put in place 
some of the tools that are necessary. I think the SLS and the 
Orion are a product of the last Authorization Act, to tell you 
the truth. I think it was impressive. It was rather bipartisan. 
So I personally believe that as this Authorization Act comes 
forward, I think that a lot of thought needs to go into it but 
a demand for a human exploration strategy needs to be a 
critical part of it and a recognition, as I tried to say in my 
comments, a strategy without funding is not a strategy. So I 
think the country needs to decide, and I don't think--I don't 
know of any better mechanism than the Authorization Act that is 
upcoming to get that subject out on the table and to get it 
properly debated and to get some constructive decisions made as 
to where we go in that regard. So that would be kind of my--
response is not the right word but my helping with the items 
that you were raising so effectively.
    Mr. Hall. Thank you, and thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Stewart from Utah for 
five minutes.
    Mr. Stewart. Okay. Thank you, Mr. Chairman. Thank you for 
the hearing. To the witnesses, you know, NASA and this 
Committee is of great interest to me. There is a couple of 
reasons for that. One of them is personal. I am a former Air 
Force pilot, had a chance to do some cool stuff in that regard. 
Now, it is not going into space, I recognize that, but it was 
still kind of fun.
    There are a number of contractors in my district, both 
large and small, that build engines and avionics and, you know, 
significant parts of contributions to this program, and that is 
true of many districts around the country. But a third reason I 
think it is most important is that it is just important to our 
Nation. It is important in regards to research, it is important 
in regards to, you know, product development, and frankly, it 
is important to our morale, and I don't think we can minimize 
the importance of that. It is important to how we think about 
ourselves as a Nation, as leaders around the world.
    And look, I know that the political and culture and 
environment is different now than it was, say, in 1969, which I 
remember. You know, I think there is a couple of reasons for 
that. You know, Apollo received a lot of public support and 
economic support not just because we were going to the moon but 
because we had to beat the Russians there. There was an element 
of competition to it. There was an element of perceived 
national security to it. And that is just not true anymore. I 
mean, it is hard to recreate that sense of urgency when things 
have changed like they have.
    I have had the opportunity to spend quite a lot of time 
with the Director and with other members of the leadership 
there, and my concern is this--and it has been stated a number 
of times here but I am going to ask you a specific question 
regarding that. We don't--I don't feel like we understand the 
vision. That is, again, restating what you have said and 
others. I don't think there is many Americans who could tell 
you do we even have an American on the space lab right now. I 
don't know they know that. Do they even know that it is up 
there any longer? Do they know the space shuttle has been 
grounded?
    So my question now is this: How do we recapture that 
vision? I think it has got to be one thing. We used to say we 
are going to the moon and now we say well, we are doing this 
and this and this. And my question is this. It has been 
proposed that we go to Mars. Is that viable? I mean, is that a 
realistic goal? And if it is a realistic goal, is that 
something that you think the Nation would coalesce around and 
when could we do it?
    Mr. Pulham. Thank you, Congressman Stewart. Interestingly 
enough, after this hearing I am going to be go over to the 
National Press Club where a private group is about to announce 
a private mission to Mars. So is Mars doable? You bet it is. 
What it takes is, it takes will and it takes direction and 
focus, and focus and understanding your purpose as an agency is 
what this report is all about, and I will share one anecdote 
with you.
    As we went around interviewing people, several people 
brought up the story of a CBS news reporter who was at the 
vehicle assemble building to interview an astronaut, and the 
astronaut was late, and the reporter engaged with a janitor who 
was mopping up an area, and asked the janitor, said what is 
your job, and the janitor said well, sir, my job is to help put 
a man on the moon, and if you went to 100 different offices in 
different NASA locations in this country today and asked that 
question, you would get 100 different answers, and that is the 
problem that has to be fixed.
    Mr. Stewart. That is the key to it, isn't it?
    Mr. Pulham. Yes, sir.
    Mr. Stewart. Very quickly, how--this private enterprise to 
Mars, it is funded with private money, I am sure, obviously. 
How are they paying for that and when is their schedule? Do you 
know?
    Mr. Pulham. I am not at liberty to discuss the details of 
what they are about to announce because it is their 
announcement, but it is something that they are going to look 
for some collaboration and relationships and expertise with 
NASA, but the funding is going to be privately provided.
    Mr. Stewart. It is going to be disappointing for some of us 
if Google goes to Mars before the United States government can.
    Mr. Pulham. Yes, sir.
    Mr. Young. You raised some interesting questions. I think 
to rekindle the excitement is an important item. I personally 
am a Mars advocate. I was Mission Director on Viking when we 
landed a couple spacecraft on Mars and put a couple spacecraft 
in orbit about Mars. The one thing that is important to 
recognize is a Mars mission is not easy. Landing a few tens of 
megatons of stuff on the surface of a planet is extraordinarily 
hard. The planet is complicated and it has a little bit of 
atmosphere but not a whole bunch of atmosphere, and all of that 
makes that process difficult. Long-duration human spaceflight 
is not something we understand very well and it is also 
difficult.
    I took the liberty in my testimony to be king for a day so 
I will expand on that. If I were king for a day, I would have 
the ultimate destination Mars. I wouldn't just kind of say it, 
you know, I mean, I would say that that is our orientation. I 
mean, we really intend to send humans to Mars, but then what I 
would do is, I would build my program around that. So that 
would be--if I could say it, that would be my beacon, but then 
that would tell me that one of the things I had to do was a 
Mars sample return because I have got to have a sample back on 
Earth and understand it before humans go to Mars, in my view. 
That would tell me I need a major research program, a 
technology program, not a scattergun technology program, if you 
allow me to say so, but a focused technology program to 
understand how do I land a few tens of megatons of stuff on the 
surface of the planet. That would be a project that an 
organization like the Langley Research Center could get its 
teeth in, you know.
    Back to what Ms. Edwards said, you have got to have 
stability. You can't decide I am going to do that this year and 
the next year say I didn't really mean that. So I would be an 
advocate of Mars as the ultimate destination, being serious 
about it, not just giving speeches about it, having it as a 
structure but then everything fits into that. So each step 
along the way--now, I don't know what is going to happen this 
afternoon but I don't know exactly when that happens or when it 
takes place but what we are doing is building to that. That 
would be my strategy for human exploration.
    I go back to what you said, not to take over a lot of time, 
but I am a product of the 1960s, 1970s, 1980s at NASA, and 
there are a few things I remember. I remember never worrying 
about what we were doing. I mean the dedication and watching it 
was there, and I don't just mean Apollo. We were doing Viking 
and other stuff.
    The other thing is a little bit what Mr. Rohrabacher was 
kind of touching on. Throughout my NASA career, I never 
remember anybody telling me at a press conference what to say. 
I never recall ever being given a script. I never recall much 
interaction with anybody other than the NASA leadership 
exercising our mission, and what I am really trying to say 
about this politicizing question, I am a big believer, if you 
have good people who have a clear definition of what it is they 
are trying to do, the rest of us are not dumb. You know what I 
mean? We are able to understand that very, very well. So that 
is the NASA I recognize, not the NASA where when you have a 
press conference you get a script as to what you are supposed 
to say. You get an input as to what you are supposed to do. If 
you come to Congressional testimony, it is reviewed multiple 
times. I never had a press conference, a briefing, a talk pre-
reviewed of anything I ever did in almost 20 years at NASA.
    Mr. Stewart. Thank you.
    Chairman Palazzo. I now recognize Mr. Posey from Florida 
for five minutes.
    Mr. Posey. Thank you, Mr. Chairman.
    It is very clear that almost everyone believes that NASA 
lacks direction, and we need to somehow find a way to establish 
that direction and continue that direction, and it is my sense 
that the Space Leadership Preservation Act is the best shot we 
have at that. I mean, it sure beats continuing to flog the 
troops hoping to improve morale, you know, the beatings will 
continue until morale improves. I mean, this is the first thing 
I see proposed that will kind of give us some continuity and it 
is kind of positive, and I like your vision and I like 
everything both of you have said.
    In your written testimony, Mr. Young, you said ``I worry 
that approval will be difficult and implementation is subject 
to too many unintended consequences,'' and that is one of the 
first things we worry about. You know, we try not to do any 
harm. We want to do good but the first thought is do no harm. I 
am just wondering what kind of unintended consequences you 
might envision so that we might also be alert to that.
    Mr. Young. I suspect the top of my list is the members of 
the board, and you know, I looked at the process by which they 
are identified and, you know, three here and three there and 
one here and one there, and I have watched committees be put 
together and I have watched committees that can really have an 
influence, sometimes the lobbying that takes place to become a 
member of the committee. So if I could pick the board of 
directors, I would be totally satisfied. And what I mean by 
that is, one unintended consequence is that the board becomes a 
board with an agenda, a defined agenda as opposed to being the 
statespersons that I think is really necessary. Now, I think 
there are people out there who can be statespersons in that 
regard but I think again the unintended consequence would be, 
the wrong board would be a disaster, just as an example.
    So as I tried to say, I think if it could be implemented 
exactly as it is intended, you know, no question it would have 
a positive impact, but that would be one of my unintended 
consequences.
    Mr. Posey. I think we all wonder about that too, and 
sometimes, as you have learned over the years, perfection is 
the enemy of good, and it may take a little more effort for the 
people with different agendas coming from different places to 
change the program. I mean, I am from the Kennedy Space Center. 
I heard the President campaigning saying he was going to close 
the gap between the shuttle and Constellation program, and 
nobody in the world was more shocked than I when, as the 
Chairman said, he redlined the Constellation program. That is 
not closing the gap, that is making the gap eternal. So I am a 
little bit less worried about what damage the board could do 
right now.
    I appreciate your input on that, and well taken, and again, 
Mr. Chairman, I thank you for holding this hearing and I thank 
both of you witnesses for your input. I yield back.
    Chairman Palazzo. I want to thank the witnesses for their 
valuable testimony and the Members for their great questions 
and comments. The Members of the Committee may have additional 
questions for you, and we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments and written questions from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:13 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. A. Thomas Young

Questions submitted by Ranking Member Donna Edwards

Q1.  Your statement notes that if the cost of programs exceeds the 
budget, lower priorities should be terminated. In an agency with as 
diverse a portfolio as NASA, what process would you use to determine 
which of NASA's priorities for facilities, science, aeronautics, human 
exploration and spaceflight, and maintaining the vitality of the 
workforce and industrial base should be eliminated? That said, in your 
opinion, should we be cutting NASA's budget or increasing our 
investment? Why?

A1. The first step in assuring program content is in balance with 
available budget is to establish credible most probable cost for all 
projects. This requires a strong and experienced independent cost 
estimating capability. NASA has a policy that the cost for projects 
that can be managed as a portfolio be at 70/30 and large, unique 
projects such as JWST be at 80/20. Experience supports this policy. 
Completion of this first step will identify the macro balance between 
program content and the budget.
    Recognizing the difficulty of prioritizing an aeronautics project 
with an astrophysics project, a practical initial approach is to 
prioritize within disciplines and at current budget levels. A most 
important next step is to examine the lower priority endeavors within 
each discipline that are within the current budget and those that fall 
outside the budget. Criteria can be science, policy, workforce, 
industrial base, etc. This review should highlight disciplines that are 
underfunded and those that are overfunded at the current NASA budget 
level. Adjustments can be made to assure that the NASA budget is 
focused upon endeavors that collectively result in the most competent 
and productive NASA program This process will also identify areas 
within the NASA program where enhancements are justified.
    A critical conclusion of the suggested process is that the program 
content be in balance with the NASA budget. Achieving balance will most 
likely require augmentation of the budget and/or deletion of program 
content.
    My opinion is that an increase in the NASA investment is justified. 
The process discussed will show where increases are in the national 
interest.

Q2.  Your prepared statement indicates that you are concerned about the 
absence of a credible human exploration strategy. How do you propose we 
establish the consensus needed for a U.S. strategy for human 
exploration and secure the funding for that strategy? In this 
environment of tight fiscal constraints, is that realistic?

A2. The U. S. does not have a credible human exploration strategy. The 
U. S. does have a human exploration budget for SLS, Orion, etc. 
Additionally, there are enormous ``sunk cost'' for cancelled human 
space projects. A strategy without a most probable cost budget is an 
exercise in false hope. A budget without a strategy and a grave yard of 
cancelled endeavors is a failure of leadership.
    As a country, we must decide if we want and can afford a human 
exploration program. It is difficult to imagine a great nation not 
pursuing such an exciting, rewarding and inspiring program. Currently a 
considerable percentage of the NASA budget is spent on human space 
flight. Included are ISS, commercial crew, technology, SLA, Orion, etc. 
Is this the most exciting, rewarding and inspiring program?
    There are two realistic destinations for a human exploration 
program--the moon and Mars. Other intermediate steps can be part of a 
competent Moon, Mars or Moon/Mars program.
    Substantial effort is needed to define human exploration options. 
This can be done by NASA and/or the National Academies. Option must be 
defined and documented in significant detail. Options must also include 
most probable cost. Only then can the U. S. make a choice and decide 
what direction the country wishes to take.
    This will not be easy, but ``muddling along'' is not an acceptable 
way to continue.

Q3.  In your prepared statement, you voice concern about the ISS being 
in danger of becoming a science and research failure and argue that a 
Senior Review is needed to determine if the return justifies the 
continuation of ISS beyond 2020. What is the nature of the "Senior 
Review"? What key information is needed to evaluate the return that 
justifies continuation beyond 2020 and who should be involved as senior 
review participants?

A3. ISS is a technological marvel and a diplomatic success. ISS is now 
operational focusing upon science and research. ``Senior Review'' is an 
established concept used by NASA and NSF to evaluate operational 
systems to determine the value of the science and research versus the 
cost of operations. Result of the Senior Review can be a recommendation 
to continue at the current funding level, increase or reduce funding, 
or terminate operations. The evaluation is based upon the value and 
merit of the science and research. Participants are knowledgeable and 
independent experts. Now that ISS is operational, this is an 
established process that can be used to determine the merit of future 
funding.

Q4.  NASA can choose among several contracting alternatives. Greater 
use of one of them, long-term contracting, has been advanced by some 
and is identified in the Space Leadership Preservation Bill. For 
contracts such as those for the development of the Space Launch System 
and Orion spacecraft, would long-term contracting, as DOD uses for 
buying some fighter jets, make sense for NASA? If so why; if not, why 
not?

A4. I have not studied the current characteristics of long-term 
contracting versus alternatives to offer constructive comments.
Responses by Mr. Elliot Pulham


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record



         Space Foundation report submitted by Mr. Elliot Pulham


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
